<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     ORGANIZATIONAL MEETING FOR THE
                             116TH CONGRESS

=======================================================================

                                MEETING

                                OF THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD
                              
                             MARCH 28, 2019

                               __________

                            Serial No. 116-1
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            

                            www.govinfo.gov                 
   Printed for the use of the Select Committee on the Climate Crisis
   
                                __________
                                  
   
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
36-315 PDF                     WASHINGTON : 2019                     
             
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e69689a6859395928e838a96c885898bc8">[email&#160;protected]</a>           
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana, Ranking 
SUZANNE BONAMICI, Oregon                 Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Member Opening Statements

Chair Kathy Castor...............................................     1
Ranking Member Garret Graves.....................................     4

                           Committee Business

Proposed Rules for the 116th Congress............................     5

                          Proposed Amendments

Amendment offered by Rep. Graves.................................    10
Amendment offered by Rep. Carter.................................    14
Amendment offered by Rep. Palmer.................................    17
Amendment offered by Rep. Armstrong..............................    22
Amendment offered by Rep. Miller.................................    25

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                        THURSDAY, MARCH 28, 2019

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.

    The committee met, pursuant to call, at 9:10 a.m., in Room 
2247, Rayburn House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Lujan, Bonamici, Brownley, 
Huffman, McEachin, Levin, Neguse, Graves, Griffith, Palmer, 
Carter, Miller, and Armstrong.
    Ms. Castor. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I recognize myself for 5 minutes to give an opening 
statement.
    Well, welcome to the organizational meeting of the House 
Select Committee on the Climate Crisis of the 116th Congress. 
Thank you for your service on this committee. I expect the time 
we spend together will be constructive as we aim to develop 
policy recommendations to address the climate crisis.
    Today, we will adopt the committee rules, but before we do 
that, I would like to introduce our members and give my 
colleague, Ranking Member Graves, the opportunity to introduce 
the members from the minority.
    This committee is authorized by House Resolution 6, and we 
have an important charge: to deliver recommendations to 
Congress and to the American people by March of 2020, just over 
1 year from now, to address the climate crisis and, 
specifically, to achieve substantial and permanent reductions 
in pollution and other activities that contribute to the 
climate crisis.
    Now, I have a homework assignment for everyone, and that is 
to read the Fourth National Climate Assessment that was 
released by the Trump administration back in November. And I 
would like to just read the opening paragraph from the Fourth 
National Climate Assessment.
    ``Earth's climate is now changing faster than at any point 
in the history of modern civilization, primarily as a result of 
human activities. The impacts of global climate change are 
already being felt in the United States and are projected to 
intensify in the future. But the severity of future impacts 
will depend largely on actions taken to reduce greenhouse gas 
emissions and to adapt to the changes that will occur. 
Americans increasingly recognize the risk climate change poses 
to their everyday lives and livelihoods and are beginning to 
respond.''
    So for this committee, I expect that we will find areas of 
common ground. And this committee has the opportunity to 
recommend action to standing committees in the coming months, 
not to wait until March of 2020. Ultimately, to fulfill our 
charge, we must address what is necessary for America to truly 
address the climate crisis.
    And, with that, I would like to introduce members of the 
majority on the committee. First, Ben Ray Lujan from Nevada 
serves as----
    Mr. Lujan. New Mexico.
    Ms. Castor. Excuse me. I knew that, but my script did not 
know that. I apologize.
    Of course, the Assistant Speaker is from the great State of 
New Mexico. He comes to this committee with deep experience in 
Congress on renewable energy policy, as he served as chairman 
of New Mexico's Public Regulation Commission, where he helped 
strengthen the State's renewable energy standard. He also 
serves on the great Energy and Commerce Committee.
    Congresswoman Suzanne Bonamici from Oregon serves on the 
House Science Committee. And her district is in Oregon, already 
grappling with rising seas, ocean acidification, and wildfires. 
Congresswoman Bonamici co-chairs the STEAM Caucus, the Oceans 
Caucus, and will be a valued member of this committee.
    Congresswoman Julia Brownley from California is a longtime 
environmental leader in California and serves on the House 
Committee on Transportation and Infrastructure. Congresswoman 
Brownley's district suffered from horrendous wildfires in the 
past months.
    And I hope you will bring their perspective to us as we 
grapple with the climate crisis.
    Jared Huffman is also from California. He and I have shared 
a great interest in coastal issues and protecting our shores 
from oil spills. As chair of the Water, Oceans, and Wildlife 
Subcommittee in the House Natural Resources Committee, he 
brings a wealth of expertise to our committee.
    Welcome.
    Congressman Don McEachin from Virginia is one of Congress's 
most prolific leaders on environmental justice. He also co-
chairs the CBC's Energy, Environment, and Agriculture Task 
Force and serves on the Energy and Commerce Committee with me, 
as well as the Natural Resources Committee.
    Congressman Mike Levin from California serves on the House 
Natural Resources Committee and is a clean-energy executive. He 
is new to Congress this term but brings great enthusiasm for 
tackling the issues ahead.
    Welcome.
    Congressman Sean Casten from Illinois is a scientist, an 
engineer by training, and a clean-energy executive from 
Illinois. So we will benefit greatly from his expertise on this 
committee.
    Congressman Joe Neguse from Colorado led his State's 
consumer protection agency, which includes the Public Utilities 
Commission. And he is the founder of New Era Colorado, a 
nonprofit devoted to advancing clean energy in the State.
    Welcome, all.
    So, with that, I would love to give Ranking Member Graves 
the opportunity to provide some opening remarks and introduce 
the other members from the committee.
    [The prepared statement of Ms. Castor follows:]
                Opening Statement of Chair Kathy Castor
                        As Prepared for Delivery
     Organizational Meeting of the Select Committee on the Climate 
                                 Crisis
                             March 28, 2019
    Thank you everyone for joining us. I'm so happy to welcome you to 
the very first meeting of the House Select Committee on the Climate 
Crisis. To start, I want to thank you for your service on this 
committee and I hope the time we spend together will be constructive 
for all of us and constructive for addressing the climate crisis.
    Today, we'll be considering the committee rules, but before we do 
that I wanted to introduce our members and give my colleague 
Congressman Graves an opportunity to introduce members from the 
minority.
    Many of you already know me, many of you will get a chance to know 
me as we work together. I've been in Congress since 2006 and before 
that, like many of you, I served in local government, including as a 
county commissioner. In Florida, we see the effects of rising seas on 
our community every day. So when we talk about the climate crisis, we 
are talking about my home.
    This committee is authorized by House Resolution 6 and we have an 
important charge: to deliver recommendations to Congress and the 
American people by March of 2020--just one year from now--to address 
the climate crisis. And specifically ``to achieve substantial and 
permanent reductions in pollution and other activities that contribute 
to the climate crisis.''
    I know we will have significant differences on this committee. I 
hope we can approach those differences constructively.
    I also think we will find areas of common ground and I hope this 
committee will address what we can do in Congress together today.
    But ultimately to full fill our charge we must address what is 
necessary for our country to do to truly address the climate crisis.
    With that, I would like to introduce members of the majority on the 
committee:
    Ben Ray Lujan serves as assistant speaker. He comes to this 
committee with deep experience in Congress on renewable energy policy 
and he served as Chairman of New Mexico's Public Regulation Commission, 
where he helped strengthen the state's renewable electricity standard.
    Suzanne Bonamici serves on the House Science Committee and her 
district in Oregon is already grappling with rising seas, ocean 
acidification and wildfires.
    Julia Brownley is long-time environmental leader in California and 
serves on the House Committee on Transportation and Infrastructure.
    Jared Huffman is from California where he and I have shared a great 
interest in coastal issues and protecting our shores from oil spills. 
As Chair of the Water, Ocean and Wildlife subcommittee in the House 
Natural Resources Committee, he brings a wealth of expertise to our 
committee.
    Donald McEachin is one of Congress's most prolific leaders on 
environmental justice. He also co-chairs the CBC's energy, environment 
and agriculture task force and serves on the Energy and Commerce 
committee with me as well as the Natural Resources Committees.
    Mike Levin serves on the House Natural Resources committee and is 
another clean energy executive on our committee who is new to Congress 
this term.
    Sean Casten is a scientist and engineer by training and a clean 
energy executive in Illinois, so we'll benefit greatly from his 
expertise on this committee.
    Joe Neguse from Colorado, has lead his state's consumer protect 
agency, which also includes the Public Utilities Commission. And he is 
the founder of New Era Colorado, a non-profit devoted to advancing 
clean energy in his state.
    So welcome and with that, I'd love to give Ranking Member Graves 
the opportunity to provide some opening remarks and introduce the other 
members of this committee.

    Mr. Graves. Thank you, Madam Chair, and I am very happy to 
be here. And I appreciate the opportunity to join you in 
addressing what I think needs to be an important priority for 
this Congress.
    Coming from the State of Louisiana, where, a few jobs back, 
I had the opportunity to work on one of the largest resiliency 
projects in the Nation, working to help to protect our 
communities from flooding and the threat of hurricanes in the 
aftermath of Hurricane Katrina, working to restore some of the 
2,000 square miles of our coastal wetlands that have been lost 
in one of the most productive ecosystems on the North American 
continent, Madam Chair, there is no question that when you 
bring up this topic, when you bring up the topic of climate 
change, it results oftentimes in folks taking very divisive 
views. Folks often run to their corner.
    I want to reiterate something that you said. I agree with 
you. I do believe that there are many things, many objectives 
that we share. I think that we may find ourselves in the same 
place, perhaps for different reasons, but in the same place.
    And I think that this is an opportunity for us to reset, to 
redefine the narrative, to work together to address issues that 
are of mutual concern. Obviously, the protection of our 
communities, the protection of our environment is something 
that we all share. And we have a diverse group of members that 
are here that I think are going to have the opportunity on both 
sides to provide input for us to move forward and achieve some 
of the goals that I know are important to all of us.
    I think something that we need to focus on is not less 
science but more, actually bringing more science to the table, 
introducing new fields of science into this topic to make sure 
that decisions and recommendations we make are grounded, to 
make sure that they are realistic, to make sure that they are 
actually going to advance some of the objectives that I believe 
we all share.
    So, once again, I want to say I am looking forward to 
working with you and all the members of the committee. We have 
a fantastic group of members that we are going to be working 
with to partner with some of your folks, starting with Morgan 
Griffith from Virginia. He serves on the Energy and Commerce 
Committee. Strong science background, and has already been a 
great asset in some of our discussions.
    Gary Palmer from Alabama that has been the beneficiary of--
let's see, the president of University of Alabama we trained at 
LSU. The coach of the football team we trained at LSU. But Gary 
played football for Alabama, but, more importantly, spent 
decades running a policy institute in Alabama. And, once again, 
just great background in helping to guide this Congress in 
thinking through the implications of policy.
    Buddy Carter from Georgia represents the entire coast of 
Georgia, and the only pharmacist in the Congress. Buddy serves 
on the Energy and Commerce Committee. And, once again, just a 
great, great asset for Georgia and for the Congress.
    Carol Miller from West Virginia, a bison farmer, a small-
business owner. And lives in the area where I used to river 
guide, over in West Virginia, which we talked about a little 
bit yesterday. But, once again, bringing the perspective of 
small businesses, bringing the perspective of West Virginia, 
which I think is really important to make sure that we 
understand the full impact of decisions and recommendations 
that we make here.
    And then last, Mr. Kelly Armstrong, who represents a very 
small district in North Dakota--represents the State of North 
Dakota. And Kelly has a background in agriculture and energy 
issues, a family business. And looking forward to input from 
North Dakota, which has participated in an energy revolution 
for this country and----
    Ms. Castor. And I was glad to hear that the severe flooding 
in the Midwest has not affected your district. But our thoughts 
are with all of the folks across the Midwest who are going 
through that trauma right now.
    Mr. Graves. So that is the team.
    Ms. Castor. Terrific.
    Mr. Graves. I yield back.
    Ms. Castor. Thank you very much, Ranking Member Graves.
    Now we will move to our first order of business, the 
consideration and adoption of the select committee's rules for 
the 116th Congress.
    I ask unanimous consent that the proposed rules be 
considered read and open for amendment at any point.
    [The information follows:]
             In the Select Committee on the Climate Crisis
                      116th Congress, 1st Session
                             March 28, 2019
                               __________

                              A RESOLUTION

                         Offered by Ms. Castor
     To adopt rules of the Select Committee on the Climate Crisis 
     pursuant to clause 2 of rule XI of the Rules of the House of 
                            Representatives.
    Resolved, That the Rules of the Select Committee on the Climate 
Crisis for the 116th Congress shall be:

RULE 1. GENERAL PROVISIONS

    (a) The provisions of section 104(f) of H. Res. 6 (116th Congress) 
governing the proceedings of the Select Committee on the Climate Crisis 
(hereinafter referred to as the ``Committee'') are hereby incorporated 
by reference and nothing herein shall be construed as superseding any 
provision of that section. The Rules of the House of Representatives 
shall apply to the Committee to the extent that they are not 
inconsistent with that title.
    (b) The rules of the Committee shall be made publicly available in 
electronic form and published in the Congressional Record not later 
than 30 days after the Committee adopts its rules.

RULE 2. MEETINGS.

    (a) In General.--
          (1) The regular meeting date of the Committee shall be the 
        first Tuesday of every month when the House is in session in 
        accordance with clause 2(b) of rule XI of the Rules of the 
        House of Representatives. If the House is not in session on the 
        first Tuesday of a month, the regular meeting date shall be the 
        third Tuesday of that month. A regular meeting of the Committee 
        may be dispensed with if, in the judgment of the Chair of the 
        Committee, there is no need for the meeting.
          (2) Additional meetings may be called by the Chair of the 
        Committee as the Chair considers necessary, in accordance with 
        clause 2(g)(3) of rule XI of the Rules of the House of 
        Representatives.
    (b) Meetings of the Committee shall be called to order and presided 
over by the Chair or, in the Chair's absence, by a member designated by 
the Chair to carry out such duties.
    (c) Notification.--
          (1) Pursuant to clause 2(g)(3) of rule XI of the Rules of the 
        House, the Chair shall make a public announcement of the date, 
        place, and subject matter of a Committee meeting (other than a 
        hearing), which may not commence earlier than the third 
        calendar day (excluding Saturdays, Sundays, or legal holidays 
        except when the House is in session on such a day) on which 
        members have notice thereof.
          (2) The agenda for each Committee meeting, setting out all 
        items of business to be considered, shall be established by the 
        Chair and provided to each member of the Committee at least 36 
        hours (exclusive of Saturdays, Sundays, and legal holidays 
        except when the House is in session on such days) in advance of 
        the commencement of such meeting.
    (d) The requirements of paragraph (c) may be waived by a majority 
vote of those present, a quorum being present, or by the Chair with the 
concurrence of the Ranking Member. If the requirements of paragraph (c) 
are waived, the Chair shall notify the members of the Committee at the 
earliest possible time.

RULE 3. HEARINGS.

    (a) Announcement of Hearings.--
          (1) Pursuant to clause 2(g)(3) of rule XI of the Rules of the 
        House, the Chair shall announce the date, time, place, and 
        subject matter of any hearing of the Committee, which may not 
        commence earlier than one week after such notice.
          (2) A hearing may commence sooner than specified in (a)(1) if 
        the Chair, with the concurrence of the Ranking Member, 
        determines there is good cause or the Committee so determines 
        by majority vote, a quorum being present. The Chair shall 
        announce the hearing at the earliest possible time.
    (b) Written Witness Statement; Oral Testimony.--
          (1) Filing of Statement.--To the greatest extent practicable, 
        each witness who is to appear before the Committee shall file 
        with the clerk of the Committee a written statement of his or 
        her proposed testimony at least two business days in advance of 
        his or her appearance. The clerk of the Committee shall 
        distribute this testimony to the Members of the Committee as 
        soon as is practicable and at least one business day before the 
        hearing. The requirements of this subparagraph may be waived or 
        modified by the Chair after consultation with the Ranking 
        Member.
          (2) Each witness shall limit his or her oral presentation of 
        testimony to no more than five minutes.
          (3) Truth in Testimony.--Each witness appearing in a 
        nongovernmental capacity shall include with the written 
        statement of his or her proposed testimony a curriculum vitae 
        and a disclosure of any Federal grants or contracts or foreign 
        government contracts and payments related to the subject matter 
        of the hearing received during the current calendar year or 
        either of the two preceding calendar years by the witness or by 
        an entity represented by the witness. The disclosure shall 
        include (A) the amount and source of each Federal grant (or 
        subgrant thereof) or contract (or subcontract thereof) related 
        to the subject matter of the hearing; and (B) the amount and 
        country of origin of any payment or contract related to the 
        subject matter of the hearing originating with a foreign 
        government.
          (4) Availability of Information.--Statements filed under this 
        paragraph shall be made publicly available in electronic form 
        not later than one day after the witness appears.
    (c) Notification of Subject Matter.--As soon as practicable but no 
later than 36 hours before the commencement of a hearing, the Chair 
shall make to the public and all Members of the Committee a concise 
summary of the subject matter under consideration at the hearing, any 
relevant reports from departments or agencies on such matters, and a 
list of witnesses, including minority witnesses.
    (d) Minority Witnesses.--When any hearing is conducted by the 
Committee on any measure or matter, the minority party members on the 
Committee shall be entitled, upon request to the Chair by a majority of 
those members, to call at least one witness, as selected by the 
minority members, to testify with respect to that measure or matter 
along with witnesses selected by the Chair.
    (e) Opening Statements.--
          (1) Chair and Ranking Member.--At any hearing of the 
        Committee, the Chair and Ranking Member, shall each control 
        five minutes for opening statements. The Chair and Ranking 
        Member may recognize other members within their respective five 
        minutes.
          (2) Other Members.--The Chair may allow other members of the 
        Committee to deliver oral opening statements, as appropriate, 
        with the concurrence of the Ranking Member. Such statements 
        shall not exceed five minutes in length and are to be equally 
        distributed between majority and minority members to the extent 
        practicable given the party makeup of the members present. 
        Members not recognized by the Chair for oral opening statements 
        may submit written opening statements for the record.
    (f) Questioning of Witnesses.--The Chair shall initiate the right 
to question witnesses before the Committee, followed by the Ranking 
Member and all other members thereafter.
          (1) Order of Member Recognition.--The right to question the 
        witnesses before the Committee shall alternate between majority 
        and minority members. A member of the Committee may question a 
        witness only when recognized by the Chair for that purpose. The 
        Chair shall recognize in order of appearance members who were 
        not present when the meeting was called to order after all 
        members who were present when the meeting was called to order 
        have been recognized in the order of seniority on the 
        Committee.
          (2) Procedures for Questioning of Witnesses by Members.--Each 
        member shall be limited to 5 minutes in the questioning of 
        witnesses and shall limit his or her remarks to the subject 
        matter of the hearing. After consultation with the Ranking 
        Member, the Chair may recognize members who have already had an 
        opportunity to question the witness for a second period of 5 
        minutes once each member of the Committee present has been 
        recognized once for that purpose.
          (3) Extended Questioning of Witnesses by Members.--Following 
        the questioning of witnesses described in (f)(2) above, the 
        Chair, with the concurrence of the Ranking Member or the 
        Committee by motion, may permit a specified number of members 
        to question one or more witnesses for a specified period of 
        time not to exceed 60 minutes in the aggregate, equally divided 
        between and controlled by the Chair and the Ranking Member.
          (4) Questions for the Record.--Each member may submit to the 
        Chair additional questions for the record to be answered by the 
        witnesses who have appeared. Each member shall provide a copy 
        of the questions in an electronic format to the Committee no 
        later than 10 business days following a hearing. The Chair 
        shall transmit all questions received from members of the 
        Committee to the appropriate witnesses and include the 
        transmittal letter and the responses from the witnesses in the 
        hearing record. After consultation with the Ranking Member, the 
        Chair is authorized to close the hearing record no earlier than 
        15 business days from the date the questions were transmitted 
        to the appropriate witnesses.
    (g) Hearings of the Committee shall be called to order and presided 
over by the Chair or, in the Chair's absence, by a member designated by 
the Chair to carry out such duties.
    (h) Oaths.--The Chair of the Committee, or a member designated by 
the Chair, may administer oaths to any witness before the Committee. 
The Chair or his or her designee may administer the following oath to 
all witnesses prior to receiving testimony: ``Do you solemnly swear or 
affirm, under penalty of law, that the testimony you are about to give 
is the truth, the whole truth, and nothing but the truth, so help you 
God?''
    (i) Claims of Privilege.--Claims of common-law privilege made by 
witnesses in hearings, or by interviewees in investigations or 
inquiries, are applicable only at the discretion of the Chair, subject 
to appeal to the Committee.

RULE 4. OPEN PROCEEDINGS.

    (a) Meetings for the transaction of business and hearings of the 
Committee shall be open to the public, including radio, television, and 
still photography coverage, unless closed in accordance with clause 
2(g) of rule XI of the Rules of the House of Representatives.
    (b) The audio and video coverage of Committee proceeding permitted 
under clause 4 of rule XI of the Rules of the House of Representatives 
shall apply to the Committee.

RULE 5. REPORTS.

    (a) Approval of Official Committee Reports.--Any report completed 
pursuant to section 104(f)(5) of H. Res. 6 (116th Congress) that 
purports to express the views, findings, conclusions, or 
recommendations of the Committee must be approved by a majority vote of 
the Committee at a meeting at which a quorum is present, in accordance 
with Committee Rule 7(a)(3). The total number of votes cast for and 
against, and the names of those voting for and against, shall be 
included in the Committee report on the matter.
    (b) Notice of Committee Reports.--Any report described in (a) shall 
not be considered in the Committee unless the proposed report has been 
available to the members of the Committee for at least three business 
days before consideration of such report in the Committee.
    (c) Additional Views.--If, at the time of approval of a report, a 
member of the Committee gives notice of intent to file supplemental, 
minority, additional, or dissenting views for inclusion in the report, 
all members of the Committee shall be entitled to no less than two 
business days after such notice to file such views following clause 
2(l) of rule XI and clause 3(a)(1) of rule XIII of the Rules of the 
House.
    (d) Availability of Publications.--Pursuant to clause 2(e)(4) of 
rule XI of the Rules of the House, the Committee shall make its 
publications available in electronic form to the maximum extent 
feasible. Pursuant to sections 104(f)(5) and 104(f)(6) of H. Res. 6 
(116th Congress), the Committee shall make its publications available 
to the general public in widely accessible formats not later than 30 
calendar days following the respective dates for completion.

RULE 6. COMMITTEE RECORDS.

    (a) Availability.--Documents reflecting the proceedings of the 
Committee shall be made publicly available in electronic form on the 
Committee's website and in the Committee office for inspection by the 
public, as provided in clause 2(e) of rule XI of the Rules of the House 
of Representatives, within 48 hours of such record vote after each 
meeting has adjourned, including a record showing those present at each 
meeting; and a record of the vote on any question on which a record 
vote is demanded, including a description of the motion, order, or 
other proposition, the name of each member voting for and each member 
voting against such motion, order, or proposition, and the names of 
those members of the Committee present but not voting.
    (b) Archived Records.--The records of the Committee deposited at 
the National Archives shall be made available for public use in 
accordance with Rule VII of the Rules of the House. The Chair shall 
notify the Ranking Member of any decision, pursuant to clause 3(b)(3) 
or clause 4(b) of such rule, to withhold a record otherwise available. 
Upon written request of any member of the Committee, the Chair shall 
present the matter to the Committee for a determination, which shall be 
subject to the same requirements for conduct of Committee business 
under Committee Rule 2.

RULE 7. QUORUMS AND RECORDED VOTES; POSTPONEMENT OF VOTES.

    (a) Establishment of a Quorum.--
          (1) For the purpose of taking testimony and receiving 
        evidence, no fewer than two members of the Committee shall 
        constitute a quorum.
          (2) A majority of the members of the Committee shall 
        constitute a quorum for those actions for which the Rules of 
        the House of Representatives require a majority quorum.
          (3) A majority of the members of the Committee shall 
        constitute a quorum for issuing an official Committee report 
        pursuant to Rule 5 of the Committee rules and section 104(f)(5) 
        of H. Res. 6 (116th Congress).
          (4) For the purposes of taking any other action, one-third of 
        the members of the Committee shall constitute a quorum.
    (b) Recorded Votes.--A recorded vote may be demanded by one-fifth 
of the members present.
    (c) Postponement of Votes.--Pursuant to clause 2(h)(4) of the Rules 
of the House, the Chair, after consultation with the Ranking Member, 
may postpone further proceedings when a recorded vote is ordered on the 
question of approving any measure or matter or adopting an amendment 
and may resume proceedings on a postponed vote at any time after 
reasonable notice to Members by the Clerk or other designee of the 
Chair. When proceedings resume on a postponed question, notwithstanding 
any intervening order for the previous question, an underlying 
proposition shall remain subject to further debate or amendment to the 
same extent as when the question was postponed.

RULE 8. COMMITTEE STAFF.

    (a) Professional and other staff of the Committee are subject to 
the provisions of clause 9 of rule X of the Rules of the House of 
Representatives.
    (b) Majority Staff.--The Chair shall appoint and determine the 
remuneration of, and may remove, the employees of the Committee not 
assigned to the minority. The staff of the Committee not assigned to 
the minority shall be under the general supervision and direction of 
the Chair, who shall establish and assign the duties and 
responsibilities of such staff members and delegate such authority as 
he or she determines appropriate.
    (c) Minority Staff.--The Ranking Member shall appoint and determine 
the remuneration of, and may remove, the staff assigned to the minority 
within the budget approved for such purposes. The staff assigned to the 
minority shall be under the general supervision and direction of the 
Ranking Member, who may delegate any authority he or she determines 
appropriate.
    (d) The Chair and Ranking Member have the right to secure one or 
more detailees to assist with the work of the Committee.

RULE 9. BUDGET.

    (a) The Chair, in consultation with the Ranking Member, shall 
prepare a budget providing amounts for staff, committee travel, field 
hearings, investigation, and other expenses of the Committee. Funds 
authorized for the Committee as provided in clause 6 of rule X are for 
expenses incurred in the activities of the Committee.
    (b) Consistent with clause 9 of rule X, the Chair shall designate 
an amount equal to 1/3 of the amount provided to the Committee in the 
primary expense resolution adopted by the House of Representatives to 
be under the direction of the Ranking Member for the compensation of 
the minority staff, travel expenses of minority members and staff, and 
minority office expenses. All expenses of minority members and staff 
shall be paid for out of the amount so set aside.

RULE 10. TRAVEL.

    (a) The Chair may authorize travel for any member and any staff 
member of the Committee in connection with activities or subject 
matters under the general jurisdiction of the Committee. Travel to be 
reimbursed from funds set aside for the Committee for any member of 
staff member shall be paid only upon the prior authorization of the 
Chair. Before such authorization is granted, there shall be submitted 
to the Chair in writing the following:
          (1) The purpose of the travel.
          (2) The dates during which the travel is to occur.
          (3) The names of the states or countries to be visited and 
        the length of time to be spent in each.
          (4) An agenda of anticipated activities.
          (5) The names of members and staff of the Committee for whom 
        the authorization is sought.
    (b) Members and staff of the Committee shall make a written report 
to the Chair on any travel they have conducted under this subsection, 
including a description of their itinerary, expenses, and activities, 
and of pertinent information gained as a result of such travel.
    (c) Members and staff of the Committee performing authorized travel 
on official business shall be governed by applicable laws, resolutions, 
and regulations of the House and of the Committee on House 
Administration.

RULE 11. WEBSITE.

    The Chair shall maintain an official Committee website for the 
purpose of carrying out the official responsibilities of the Committee, 
including communicating information about the Committee's activities. 
The Ranking Member may maintain a minority website. To the maximum 
extent feasible, the Committee shall make its publications available in 
electronic form on the official Committee website maintained by the 
Chair.

    Ms. Castor. You should have received copies of the proposed 
rules on the desk before you, and they were circulated on 
Tuesday night.
    Five amendments were filed yesterday afternoon and evening 
and circulated electronically. We spent many hours over the 
last couple weeks to find agreement on the rules with the 
minority and incorporated many of their changes.
    The first amendment we will consider is the Graves 
amendment. The clerk will report the amendment.
    The Clerk. ``An Amendment to the Rules for the Select 
Committee on the Climate Crisis, Offered by Mr. Graves of 
Louisiana.''
    [The amendment of Mr. Graves follows:]
      Amendment to the Rules for the Select Committee on Climate 
                        Crisis (116th Congress)
                   Offered by Mr. Graves of Louisiana
    Committee Rule 5 is amended by adding the following to the end--
    (e) Contents.--Any Committee report shall include--
          (1) the net effect on regional economies, including creation 
        or retention of jobs and net revenue changes, and the related 
        costs to the federal government as a result of the 
        implementation of recommendations made by the Committee;
          (2) a quantification of the amount of greenhouse gas 
        emissions reduced as a result of the implementation of 
        recommendations made by the Committee;
          (3) a quantification of the effect on sea level rise as a 
        result of the implementation of recommendations made by the 
        Committee;
          (4) a quantification of the acres of wildlife habitat 
        preserved or enhanced as a result of the implementation of 
        recommendations made by the Committee;
          (5) a quantification of the change in global temperatures 
        resulting from the implementation of recommendations made by 
        the Committee compared to the change in global temperatures 
        without the implementation of recommendations made by the 
        Committee;
          (6) a quantification of the potential cost savings from pre-
        disaster mitigation as a result of the implementation of 
        recommendations made by the Committee.

    Ms. Castor. The ranking member is recognized for 5 minutes.
    Mr. Graves. Thank you, Madam Chair.
    Madam Chair, in my opening statement, I talked about how I 
think it is important that we sort of reset the narrative, 
redefine this issue, and we introduce more science into the 
discussion of climate change, ensuring that we are not looking 
myopically, that we are looking much broader, that we are 
taking into consideration what are the implications of the 
recommendations that we ultimately make. It is important that 
we look at what happens in Virginia, what happens in West 
Virginia, what happens in Louisiana and in Florida and in our 
States that have experienced some of the impact of sea rise.
    And so what this amendment would do is it would ensure 
that, as we move forward toward our recommendations that we are 
going to be issuing to the Congress, that we actually go 
through and quantify and understand things like the net effect 
on regional economies, including the impact on jobs and revenue 
changes, making sure that we understand the actual amount of 
greenhouse gasses that these recommendations would impact or 
reduce, and understanding what that does in terms of how does 
that affect temperature, how does that affect sea rise.
    We need to use metrics, we need to use criteria to guide 
decisions. We can't just go out there and say that I think it 
would be fantastic if we had everyone convert to wind-powered 
airplanes. Let's understand the implications, both good and 
bad, to where we can understand the tradeoffs and make informed 
decisions.
    I will say it again: We want more science incorporated into 
this process.
    Quantifying the acres of wildlife habitat that are 
preserved or enhanced as a result of the recommendations that 
we make to the Congress. I talked about ensuring that we 
understand the temperature changes.
    And something, once again, that is really important, 
especially, Madam Chair, thinking about just in recent years, 
Hurricanes Harvey, Irma, Maria, Michael, Florence, the 
wildfires in California, the awful flooding, as you noted, that 
is occurring in many of our Midwest and northern reaches of the 
United States as a result of snow melt, rainfall, and other 
watershed challenges, literally from the top of this country 
down to my State in Louisiana, where our rivers are at flood 
stage, making sure that we understand what type of pre-disaster 
or what type of mitigation and adaptation investments will 
return cost savings and how we can make the best principled 
investments to make our communities, our families, our homes, 
and our businesses as safe as possible.
    So I urge adoption of the amendment. I think it is 
important that we have quantifiable information and understand, 
if decisions that are being made or recommendations being made 
by this committee could cause adverse impacts, let's make sure 
that they are balancing benefits as a result of those 
recommendations.
    I yield.
    Ms. Castor. The gentleman yields back.
    I recognize myself for 5 minutes in opposition to the 
amendment.
    I want to thank the ranking member for his thoughtful 
recommendations, but as we do our work, every member will have 
an opportunity and will have ideas about how we should evaluate 
the information that is presented to us, and we will receive a 
lot of expert testimony and recommendations. So, as we develop 
committee reports, members will have an opportunity to provide 
input on what any given report will cover, so it is premature 
at this point to include in our rules any specific analyses.
    Under rule 5(c), every member can have the opportunity to 
file additional views to committee reports. If the ranking 
member feels the analyses outlined in his amendment are not 
covered in the committee report, he will have the opportunity 
to provide any supplementary analysis as additional views.
    So I urge a ``no'' vote and yield back.
    Is there anyone else that would like to speak to this 
amendment on the Republican side?
    Then on the Democratic side?
    Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Thank you, Madam Chair.
    So I just want to say with respect to this amendment and 
also, I believe, all of the other Republican amendments that 
are suggesting all of these quantifications and studies that 
they would like to see for anything that comes out of this 
committee, I would like to see some of that stuff too. But I 
think it is important, as we try to understand the costs and 
tradeoffs of some of these climate solutions that I hope we 
will be recommending, that we also really take a careful look 
at the cost of the status quo. Because, otherwise, what is the 
point of pretending that action is always expensive and 
inaction is always free?
    So I don't think this committee has the budget or the scope 
or the timeframe to do the kind of exhaustive economic 
analysis, especially to the level of certainty that seems to be 
requested in many of these amendments.
    But what I would offer to Mr. Graves and to my other 
colleagues across the aisle is I will be happy to work with you 
on a separate bill that would bring forward the kind of study 
that looks at both sides of the ledger, the cost of inaction 
and also the relative cost of some of the climate solutions 
that we are likely to recommend, so that we can point to the 
most cost-effective measures.
    That is a good way to go. It is getting harder to do that, 
though, because the government scientists that we would 
normally look to for this information are being reassigned and 
pushed out of their jobs, and their budgets are being slashed. 
In some cases, entire agency mission statements are being 
scrubbed of references to climate change; entire websites are 
being taken down and scoured of any references to climate 
science or climate data. The Trump budget continues this march 
against the kind of science and analysis that we would look to 
them to provide.
    So, in light of all that, we really do need, I think, a 
bipartisan bill in this Congress to begin to bring forward the 
cost of inaction on climate change as well as a menu of 
economic choices that some of these amendments point to so we 
can make good decisions. And I will be happy to work separately 
with you on that.
    Mr. Graves. Will the gentleman yield?
    Mr. Huffman. Yes.
    Mr. Graves. Thank you. And I want to thank you for your 
comments about working with us, and I would love to see if we 
can figure out a way to do that. Because, look, we can sit here 
and write a report that has utopian views. They have to be 
grounded.
    One of the challenges with this issue, as I stated in my 
opening statement, is that, when you look historically, what 
has happened is that folks just go to their corners. Folks go 
to their corners. And so what happens? Nothing. Nothing 
happens, largely. And so I would love to work with you on that.
    But I think that it is really important that decisions, 
recommendations we make have some type of sideboard, some type 
of criteria or parameters to where we know what the net effects 
are going to be.
    And, also, I use the word ``net'' intentionally, because 
that word is in here. ``Net,'' as you know, it actually 
considers different impacts based--it looks at a baseline 
condition and then determines what happens. And so, if you want 
to add the word ``net'' in here, you want to add the word 
``baseline'' in here, I would welcome your changes to this 
amendment that would do that.
    Now, one comment that you made, you said that this 
committee doesn't have the budget, the scope, or the timeframe. 
You and I, we serve on three committees together, which is 
incredible, but--and I always enjoy having discussions with 
you, because I think that you are thoughtful and you represent 
your constituents. Our constituents are very different, as we 
have discussed many times.
    But to go home to folks in West Virginia, to go home to 
folks in Virginia or Kentucky or Ohio and say that, I am sorry, 
we didn't have the time or the budget to figure out if you were 
going to lose your job or not or lose your house or not, I am 
concerned that that is insensitive and that we could actually 
make irresponsible decisions----
    Mr. Huffman. But if I might just reclaim whatever time I 
have left on that, I don't think you are going to have to have 
that conversation, Mr. Graves. This committee is going to 
produce, at the end of our work, a report. There is no scenario 
under which that report causes any of your constituents to lose 
their jobs and force you to have that hard conversation.
    I would love for us in this Congress to move a lot faster 
and to, you know, maybe by the spring actually produce 
legislation where we could accelerate some of those 
conversations. But it is just not realistic to think that the 
product of this committee's work is going to force you to have 
those hard conversations.
    I think you and I should work separately on bringing 
forward a study that will look at the economic baseline, that 
will look at the tremendous cost of the status quo. Because 
when you focus only on the cost of action, you are dignifying 
this notion that the status quo is free. We are going to pay 
for climate change whether we take action or not.
    And, in fact, I actually really like one of the points that 
you have put in your rule changes. You talk about bringing----
    Mr. Graves. You better watch it. You are going to lose 
your----
    Mr. Huffman [continuing]. Bringing forward an analysis of 
the potential cost savings of pre-disaster mitigation. That is 
exactly the kind of thing we need to understand. Because I 
think it will show that many things we need to do to address 
climate change will save money and will have economic benefits, 
net benefits.
    And I will be happy to work with you separately on these 
things.
    Mr. Graves. Thank you. You better watch that----
    Mr. Huffman. I yield back.
    Mr. Graves [continuing]. You better watch that fiscal 
conservative talk.
    Ms. Castor. The gentleman yields back.
    Anyone else to be heard on the Graves amendment?
    Seeing none, hearing no further debate, the question is on 
adoption of the Graves amendment.
    All those in favor, say aye.
    All those opposed, say no.
    Mr. Graves. A recorded vote, please, Madam Chair.
    Ms. Castor. In the opinion of the chair, the noes have it.
    The ranking member has requested a roll call vote. The 
clerk may call the vote.
    The Clerk. Mr. Lujan?
    Mr. Lujan. No.
    The Clerk. Mr. Lujan votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Ms. Brownley?
    Ms. Brownley. No.
    The Clerk. Ms. Brownley votes no.
    Mr. Huffman?
    Mr. Huffman. No.
    The Clerk. Mr. Huffman votes no.
    Mr. McEachin?
    [No response.]
    The Clerk. Mr. Levin?
    Mr. Levin. No.
    The Clerk. Mr. Levin votes no.
    Mr. Casten?
    [No response.]
    The Clerk. Mr. Neguse?
    Mr. Neguse. No.
    The Clerk. Mr. Neguse votes no.
    Mr. Graves?
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes aye.
    Mr. Griffith?
    Mr. Griffith. Aye.
    The Clerk. Mr. Griffith votes aye.
    Mr. Palmer?
    Mr. Palmer. Aye.
    The Clerk. Mr. Palmer votes aye.
    Mr. Carter?
    Mr. Carter. Aye.
    The Clerk. Mr. Carter votes aye.
    Mrs. Miller?
    Mrs. Miller. Aye.
    The Clerk. Mrs. Miller votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes aye.
    Madam Chair?
    Ms. Castor. No.
    The Clerk. Madam Chair votes no.
    Ms. Castor. The clerk will report the vote.
    The Clerk. Six yeas, seven nays.
    Ms. Castor. The amendment is not adopted.
    The next amendment, the second amendment we will hear is 
the Carter amendment. We will now consider the Carter 
amendment. The clerk will report the amendment.
    The Clerk. ``An Amendment to the Rules for the Select 
Committee on the Climate Crisis, Offered by Mr. Carter of 
Georgia.''
    Ms. Castor. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment of Mr. Carter follows:]
      Amendment to the Rules for the Select Committee on Climate 
                        Crisis (116th Congress)
                    Offered by Mr. Carter of Georgia
    Committee Rule 3 is amended by adding at the end the following--
    (j) Field Hearings.--In the event of field hearings, the Chair 
shall consult with the Ranking Member to determine both the topics and 
locations of field hearings. For every two field hearings organized and 
noticed by the Chair, the Ranking Member may organize and notice a 
subsequent field hearing.

    Ms. Castor. And the gentleman is recognized for 5 minutes 
in support of his amendment.
    Mr. Carter. Thank you, Madam Chair.
    And let me begin by saying that climate change is real. 
Protecting our environment is real. We understand that. It is 
something that is incumbent upon us as Members of Congress and 
particularly and specifically incumbent upon us as members of 
this committee to address and to address in a bipartisan 
fashion.
    My hope--and I hope that this is shared by all of us--is 
that the product that is generated out of this committee will 
be a bipartisan product, it will be a product that will benefit 
all Americans and benefit all of us. Because it is extremely 
important; we acknowledge that. We certainly feel like it will 
be something that we will take pride in and that all of us will 
have partnership in.
    It is important, and what my amendment does is essentially 
say that for every two field hearings that the majority has 
that the minority would have one.
    Now, in order to come about to a bipartisan consensus, it 
is important that we all share in our experiences, in our 
interests. And, certainly, the field hearings will be a big 
part of that. A big part of what we study here will be where we 
go and the hearings that we participate in.
    To Ranking Member Graves' point about going to our separate 
corners, it would do us no good if we only looked at an agenda 
that favored one side. So my hope and my intention with this 
amendment is just to make sure that everyone has participation 
in this.
    I tell my staff often and one of my favorite sayings is 
that none of us is as smart as all of us. This just assures us 
that we are going to have the opportunity to share in the 
decisionmaking about the field hearings.
    So I would submit this amendment, Madam Chair, and I yield.
    Ms. Castor. The gentleman yields back.
    I recognize myself in opposition to the amendment for 5 
minutes.
    One of the charges of this committee will be to hold field 
hearings. We will likely hold more field hearings than the 
typical committee in Congress, and I need your suggestions. 
Ranking Member Graves and I have already, roughly, talked about 
some areas of the country that we should visit to hear their 
stories and see what other communities are doing on the 
transition to clean energy.
    So I would like your suggestions, all of the members of the 
committee. I hope we will find a number of places of mutual 
interest. And I will be consulting with the ranking member 
about possible locations and topics, but all of you. But it is 
unnecessary to incorporate an arbitrary constraint on field 
hearings, as proposed in this amendment.
    I would also note that rule 10 governs travel by the 
committee. It allows the chair to authorize travel related to 
our jurisdiction and, therefore, could provide additional 
opportunities to engage with stakeholders outside of 
Washington, D.C.
    So this amendment is unnecessary at this time, and I urge a 
``no'' vote.
    Is there anyone else that would like to be heard on the 
Carter amendment?
    Seeing none, the vote occurs on the Carter amendment.
    All those in favor, say aye.
    All those opposed, say no.
    The noes have it.
    Mr. Carter. Madam Chair, I would ask for a recorded vote.
    Ms. Castor. A recorded vote has been requested. The clerk 
will call the roll.
    The Clerk. Mr. Lujan?
    Mr. Lujan. No.
    The Clerk. Mr. Lujan votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Ms. Brownley?
    Ms. Brownley. No.
    The Clerk. Ms. Brownley votes no.
    Mr. Huffman?
    Mr. Huffman. No.
    The Clerk. Mr. Huffman votes no.
    Mr. McEachin?
    [No response.]
    The Clerk. Mr. Levin?
    Mr. Levin. No.
    The Clerk. Mr. Levin votes no.
    Mr. Casten?
    [No response.]
    The Clerk. Mr. Neguse?
    Mr. Neguse. No.
    The Clerk. Mr. Neguse votes no.
    Mr. Graves?
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes aye.
    Mr. Griffith?
    Mr. Griffith. Aye.
    The Clerk. Mr. Griffith votes aye.
    Mr. Palmer?
    Mr. Palmer. Yes.
    The Clerk. Mr. Palmer votes aye.
    Mr. Carter?
    Mr. Carter. Aye.
    The Clerk. Mr. Carter votes aye.
    Mrs. Miller?
    Mrs. Miller. Aye.
    The Clerk. Mrs. Miller votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes aye.
    Madam Chair?
    Ms. Castor. No.
    The Clerk. Madam Chair votes no.
    Ms. Castor. The clerk will report the vote.
    The Clerk. Six yeas, seven nays.
    Ms. Castor. The amendment is not adopted.
    The question now occurs on the third amendment, the Palmer 
amendment.
    And the gentleman is recognized for 5 minutes to offer his 
amendment.
    Mr. Palmer. I have an amendment at the desk. I ask 
unanimous consent that the amendment be considered read.
    Ms. Castor. Without objection.
    The Clerk. ``An Amendment to the Rules for the Select 
Committee on the Climate Crisis, Offered by Mr. Palmer of 
Alabama.''
    [The amendment of Mr. Palmer follows:]
    Amendment to the Rules for the Select Committee on the Climate 
                        Crisis (116th Congress)
                    Offered by Mr. Palmer of Alabama
    Committee Rule 5 is amended by adding the following to the end--
    (e) Contents.--Any Committee report shall include--
          (1) the net effect on regional economies, including creation 
        or retention of jobs and net revenue changes, and the related 
        costs to the federal government as a result of the 
        implementation of recommendations made by the Committee.

    Mr. Palmer. Am I recognized, Madam Chair?
    Ms. Castor. The gentleman is recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chair.
    My amendment is simple and straightforward. It would 
require that the committee include in its reports the cost of 
its recommendations on local economies.
    This is a commonsense idea. The American people, our 
constituents, deserve to know the cost of the policies that get 
reported out of the committee.
    I would like to yield to the ranking member for a moment to 
amend the amendment.
    Mr. Graves. I just want to make sure I put it in the right 
spot.
    I want to ask my friend from California, all my friends 
from California, but especially my Huffman friend from 
California: So what about on this one, Mr. Huffman? If we 
included in here--if we amended this to put in a baseline, you 
know, to have a comparative in here, to amend the amendment, do 
a second-degree, and go ahead and look at the cost of no action 
or the failure to take action, would that lure you over to the 
bright side?
    Mr. Huffman. Will the gentleman yield?
    Mr. Graves. Absolutely.
    Mr. Huffman. So, approaching it this way, the net effect, 
which would involve a baseline analysis of the cost of 
inaction, is a great place for you and I to start on a separate 
bill that brings forward the kind of economic study that we are 
talking about here.
    But it is going to be a big study, let's be really clear. 
And it will include--I don't even know whether this committee's 
report will include all of the specific menu of solutions that 
we would need to look at. It may need to be broader even than 
what this committee is able to undertake in the next 11 months.
    So let's get to work on that, Mr. Graves. I mean, let's not 
burden this committee with speculative economic hoops to jump 
through. Let's you and I undertake this separately and do it 
right.
    Mr. Graves. Well, if the gentleman would yield back?
    Mr. Huffman. Yeah.
    Mr. Graves. Yeah. Thanks.
    So here is the challenge. Could we go out and go carry out 
a big report? Yes. But how are we going to know what the 
recommendations are? How could we possibly evaluate the 
recommendations? We would have to guess what the committee is 
going to do.
    My concern--and the chair made mention of this before--my 
concern is what is going to happen is we are going to sit here 
and we are going to make these recommendations and, as you 
know, hand them out to the various committees, to Energy and 
Commerce and Transportation, Natural Resources and Science and 
others, give them recommendations----
    Mr. Huffman. Uh-huh.
    Mr. Graves [continuing]. And then it was said before that 
those committees can then go through and do an analysis. Well, 
why are we here? For what purpose?
    Mr. Huffman. Would the gentleman yield?
    Mr. Graves. Absolutely.
    Mr. Huffman. But by the same token----
    Mr. Graves. Because I see the clock is frozen. We can talk 
as long as we want.
    Mr. Huffman [continuing]. This is great. I love it. It is 
right twice a day.
    By the same token, by the time you know what this 
committee's final recommendations are in the report, you are 
not going to have time to do the exhaustive net economic impact 
that you were talking about here. And what you are really doing 
is creating a recipe for this report never being completed.
    So, again, I want to invite you to work with me to do it 
right. Let's broaden this subject. Let's call in the National 
Academy of Sciences. Let's have peer-reviewed science. Let's 
look at the severe cost of inaction, and let's compare it to 
the costs and benefits of some of the solutions that are likely 
to be required to address this climate challenge. And let's put 
a bill together.
    Mr. Graves. And so, reclaiming time, I just want to 
actually reiterate or restate your words. You just said that we 
are not going to know what we are doing. And that is my very 
concern. That is my concern, is that we are not going to know 
what the implications of our recommendations are.
    And so we are asking for more science to be injected into 
the process to where we can make informed decisions, 
understanding the tradeoffs of decisions.
    And I believe the gentleman from Alabama's amendment is 
appropriate. I want to ask unanimous consent if we can add ``or 
the failure to take action'' at the end the amendment before 
the period.
    Ms. Castor. Without objection.
    Mr. Graves. And I yield back.
    Mr. Palmer. Reclaiming my time. And I thank you, Madam 
Chair, for entertaining this discussion. I think it is very 
helpful, and I appreciate that very much.
    He mentioned my background. By the way, to correct the 
record, I practiced football at Alabama.
    But, also, prior to running the think tank, I worked for 
two international engineering companies, including Combustion 
Engineering in their Environmental Systems Division. And I 
understand a couple of fundamental principles: One, to get to 
the right solution, you must first properly define the problem. 
And, second, to get to a feasible solution, you have to 
understand the cause.
    So this amendment is offered in good faith. It is not to 
take away from the work, to impede the work. And I really would 
appreciate the consideration of the committee to adopt this 
amendment. I do think we have time to do it. And, again, having 
worked in the engineering field, I understand costs and 
estimating. I actually worked on the cost side.
    So, with that, Madam Chairman, I would encourage the 
members of the committee to vote ``yea'' on this, and I yield 
back.
    Ms. Castor. Thank you.
    The gentleman yields back. I recognize myself for 5 minutes 
in opposition to the amendment.
    Thank you, Mr. Palmer, for this thoughtful amendment, but 
as noted during the debate on Mr. Graves' amendment, under rule 
5(c), every member can have the opportunity to file additional 
views to the committee reports and the final report in March of 
2020.
    I anticipate there will be plenty of opportunities for us 
to incorporate the analysis of experts. We are going to rely on 
them--that it will be in our purview. If you feel the analysis 
outlined in your amendment is not covered in the committee 
report, you will have an opportunity to provide any 
supplemental analysis and additional views.
    And I think as the standing committees take up our 
recommendations, whether it is as we report routinely in the 
coming months or after the final report, there will be a lot of 
analysis, financial analysis, and discussion and debate over 
what course this country finally takes to confront the climate 
crisis.
    So, at this time, I urge a ``no'' vote.
    Is there anyone else who would like to be heard?
    Mr. Lujan. Would the chair yield?
    Ms. Castor. I will yield. I will yield to Mr. Lujan.
    Mr. Lujan. Madam Chair, I very much appreciate the 
conversation and the goals that are being outlined, with making 
sure that we are able to get information into this committee. I 
think that is why we have assembled and we have all agreed to 
this important responsibility.
    I just hope that when we leave here today that it is not 
being suggested that this information is not going to be 
allowed to be brought into this committee, that this committee 
rejected bringing evidence in, as we go out and we embark on 
our beautiful districts over the next few days and we are 
speaking about the important work of coming together in here, 
and that, truly, that we take full advantage of the witnesses 
that are coming in, the full opportunities that have been laid 
out in the rules as presented by Chairwoman Castor in 5(c), 
that we can submit additional information and evidence and 
datasets into the record as allowed.
    So I appreciate the conversation, and I very much look 
forward to working with my colleagues, and I yield back to the 
chair.
    Ms. Castor. I yield to Congresswoman Bonamici.
    Ms. Bonamici. Thank you, Madam Chair.
    And I also appreciate the conversation, and it is a good 
one, that we are having. But I am very concerned about amending 
the rules of how the committee operates with things that we 
have to consider and could that be read as what we can't 
consider if it is not in the rules.
    So, again, all of these things are important conversations 
to have. I am certain that, as we move forward, we will be 
talking about all of these issues and how they affect our local 
economies and how the specific policies that we are talking 
about are going to affect the people we represent. But they 
don't belong in the rules about how the committee operates.
    We will have a better product if all of these things are 
considered, but these are the rules about how the committee 
operates. I don't want to limit us to telling us what we have 
to consider and not consider in the operational rules of the 
committee.
    Thank you, Madam Chair.
    Ms. Castor. I thank the gentlewoman.
    She yields back. I yield back. Would anyone else like to be 
heard in favor of the Palmer amendment?
    Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. Thank you very much, Madam Chair.
    I mean, this is straightforward. The amendment does not 
limit other discussions, but it sets out one of the concerns 
that I think a number of us have on the minority side, and that 
is that there are a lot of folks who will, you know, bring in 
proposals that sound great on paper, but if you don't take in 
the human cost--my district has suffered tremendously with a 
huge number of loss of jobs.
    It may be something that we want to make sure we are 
looking at when we are looking at the science, but make sure we 
are having a positive impact or at least know what the negative 
impact is on the economies. Are we just forcing jobs to other 
countries, or are we actually doing something that is going to 
help the environment and the climate worldwide?
    Because if we don't look at this and we just say, well, we 
are just going to look after what the United States is doing, 
and we shift the jobs from places like my district and other 
districts like mine, where we have natural resources and we 
have jobs that are heavily tied and the economy is heavily tied 
to the natural resources of the region, and we don't look at 
how it is going to have an impact on the economy, I think it is 
a failure.
    And this amendment does not limit the committee. It is an 
amendment that helps, you know, be transparent. We are just 
going to say, here it is. Just like we need to take a look at 
the science, and if there is something that we can do, even if 
it has a cost associated with it, that will actually make a 
difference in the long run on the climate and make a positive 
difference, then we ought to have that information too.
    But I just think it is a fairly straightforward amendment 
that just assures that we are not going to go headlong into 
some policy that doesn't benefit us on the climate effectively 
and negatively impacts large regions of the country.
    I yield back.
    Ms. Castor. I thank the gentleman.
    Would anyone else like to be heard on the amendment?
    Hearing no further debate, the question is on adoption of 
the Palmer amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the chair, the noes have it, and the 
amendment is not adopted.
    Mr. Palmer. Madam Chair, I request a recorded vote.
    Ms. Castor. A recorded vote has been requested. The clerk 
will call the roll.
    The Clerk. Mr. Lujan?
    Mr. Lujan. No.
    The Clerk. Mr. Lujan votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Ms. Brownley?
    Ms. Brownley. No.
    The Clerk. Ms. Brownley votes no.
    Mr. Huffman?
    Mr. Huffman. No.
    The Clerk. Mr. Huffman votes no.
    Mr. McEachin?
    Mr. McEachin. No.
    The Clerk. Mr. McEachin votes no.
    Mr. Levin?
    Mr. Levin. No.
    The Clerk. Mr. Levin votes no.
    Mr. Casten?
    [No response.]
    The Clerk. Mr. Neguse?
    Mr. Neguse. No.
    The Clerk. Mr. Neguse votes no.
    Mr. Graves?
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes aye.
    Mr. Griffith?
    Mr. Griffith. Yes.
    The Clerk. Mr. Griffith votes aye.
    Mr. Palmer?
    Mr. Palmer. Aye.
    The Clerk. Mr. Palmer votes aye.
    Mr. Carter?
    Mr. Carter. Aye.
    The Clerk. Mr. Carter votes aye.
    Mrs. Miller?
    Mrs. Miller. Aye.
    The Clerk. Mrs. Miller votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes aye.
    Madam Chair?
    Ms. Castor. No.
    The Clerk. Madam Chair votes no.
    Ms. Castor. The clerk will report the vote.
    The Clerk. Six yeas, eight nays.
    Ms. Castor. The amendment is not adopted.
    The next question is on the Armstrong amendment. We will 
now consider the Armstrong amendment. The clerk will report the 
amendment.
    The Clerk. ``An Amendment to the Rules for the Select 
Committee on the Climate Crisis, Offered by''----
    Ms. Castor. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment of Mr. Armstrong follows:]
      Amendment to the Rules for the Select Committee on Climate 
                        Crisis (116th Congress)
                Offered by Mr. Armstrong of North Dakota
    Committee Rule 5 is amended by adding the following to the end--
    ``(e) Contents.--Any Committee reports shall include--
          (1) a quantification of the amount of greenhouse gas 
        emissions reduced as a result of the implementation of 
        recommendations made by the Committee.''

    Ms. Castor. And the gentleman is recognized for 5 minutes 
in support of his amendment.
    Mr. Armstrong. Thank you, Madam Chair.
    And in our pitch for field hearings, I will start. It is 
not easy to get to North Dakota, but when you get there, it is 
a fantastic place.
    Prior to getting elected into Congress, I represented a 
rural district in the State legislature. And in my district, we 
grow all the cereal grains; we have a huge livestock industry. 
We have an ethanol plant. We had the first small refinery 
permitted in the United States since 1976. That is now being 
converted to a biodiesel plant. We are on the southern half of 
the Bakken Shale oil play. So we have oil and natural gas. We 
move all of our commodities by pipe, truck, and rail. And we 
also, in the southern part of my district, have the largest 
wind farm in the State of North Dakota.
    So if you ever want to see an example of doing an all-of-
the-above energy strategy, I would love to have you all to 
dinner at my house.
    But one thing they all have in common is--and, yes, even 
wind farms--they have an effect on greenhouse gas emissions. 
And when we are doing these things, we also have to remember 
every one of those economies that are in my district don't 
exist just locally; they exist in a global economy. And we play 
in a global economy in every one of these fields.
    And, I mean, we can go back to 1992, and the U.N. Framework 
Convention on Climate Change stated their objective was to 
stabilize greenhouse gas concentrations in the atmosphere at a 
level that would prevent dangerous interference with climate.
    The Paris climate accord does the same thing. In an effort 
to reach its stated goal of limiting global temperature 
increase by 2 degrees Celsius, not Fahrenheit--my wife is from 
Oslo, Norway, so I always remember there are two types of 
countries in the world: There are the ones that use the metric 
system, and there are the ones that landed on the moon, so--
provides that the parties aim to achieve balance in greenhouse 
gas emissions and removals by the second half of the century.
    So greenhouse gas emissions are clearly identified as an 
important variable in the climate conversation, and common 
sense just suggests that this committee should conduct itself 
by quantifying the amount of greenhouse gas emissions reduced 
as a result of our recommendations.
    And I just--because the arguments on these are going to be 
the same both ways. And I just want to say--and I do, too, 
appreciate this conversation a lot, but I think the problem, 
when we go to the situation of every member can file their own 
report, I think that forces us back into our own bunkers. 
Because if this committee doesn't have the resources, I don't 
know how all your offices run, but we are really busy.
    And I think there is a big difference between filing 
reports on the record that we get from think tanks, whether 
they are a liberal think tank, a conservative think tank, 
gathering this information from outside resources, and this 
committee taking ownership of what we are putting there.
    And we have to consider the fact of what is the economic 
cost, what is the worldwide global impact versus how it affects 
producing States like mine. I mean, we are a commodity-based 
economy. We have 750,000 people in the whole State. We produce 
food and energy for the region, the country, and the world. And 
those are important factors to consider when we are doing this.
    So that is my amendment. Let's follow the advice of every 
math teacher I have ever had and show our work.
    And, with that, I yield back.
    Ms. Castor. The gentleman yields back.
    I recognize myself for 5 minutes in opposition to the 
amendment.
    I want to thank Mr. Armstrong for his thoughtful comments. 
I anticipate that the committee will be synthesizing many of 
the expert opinions and analyses that are submitted to us, but 
it is premature to put anything in writing that hamstrings us 
in our ability to do so.
    As I noted during the debate of Mr. Graves' first 
amendment, under rule 5(c), every member can have the 
opportunity to file additional views to committee reports as 
well. If Mr. Armstrong feels that those analyses outlined in 
his amendment are not covered in the committee report, he will 
have the opportunity to urge us on to do better, to provide 
supplementary analysis as additional views.
    So, at this time, I will urge a ``no'' vote on the 
amendment and yield back.
    Would any other member like to be recognized on the 
Armstrong amendment?
    Mr. Graves. Madam Chair?
    Ms. Castor. The ranking member is recognized for 5 minutes.
    Mr. Graves. I just had a quick question. I got hung up when 
he talked about representing rural North Dakota. Could you 
distinguish rural versus urban North Dakota?
    I am kidding. I yield back.
    Ms. Castor. The gentleman yields back. Any further 
discussion on the Armstrong amendment?
    Seeing none, the question occurs on the adoption of the 
Armstrong amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the chair, the noes have it.
    Mr. Armstrong. I request a recorded roll call vote.
    Ms. Castor. The gentleman requests a roll call vote. The 
clerk will call the roll.
    The Clerk. Mr. Lujan?
    Mr. Lujan. No.
    The Clerk. Mr. Lujan votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Ms. Brownley?
    Ms. Brownley. No.
    The Clerk. Ms. Brownley votes no.
    Mr. Huffman?
    Mr. Huffman. No.
    The Clerk. Mr. Huffman votes no.
    Mr. McEachin?
    Mr. McEachin. No.
    The Clerk. Mr. McEachin votes no.
    Mr. Levin?
    Mr. Levin. No.
    The Clerk. Mr. Levin votes no.
    Mr. Casten?
    [No response.]
    The Clerk. Mr. Neguse?
    Mr. Neguse. No.
    The Clerk. Mr. Neguse votes no.
    Mr. Graves?
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes aye.
    Mr. Griffith?
    Mr. Griffith. Aye.
    The Clerk. Mr. Griffith votes aye.
    Mr. Palmer?
    Mr. Palmer. Yes.
    The Clerk. Mr. Palmer votes aye.
    Mr. Carter?
    Mr. Carter. Aye.
    The Clerk. Mr. Carter votes aye.
    Mrs. Miller?
    Mrs. Miller. Aye.
    The Clerk. Mrs. Miller votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes aye.
    Madam Chair?
    Ms. Castor. Votes no.
    The Clerk. Madam Chair votes no.
    Ms. Castor. The clerk will report the vote.
    The Clerk. Six yeas, eight nays.
    Ms. Castor. The amendment is not adopted.
    We will now consider the Miller amendment. The clerk will 
report the amendment.
    The Clerk. ``An Amendment to the Rules for the Select 
Committee on the Climate Crisis, Offered by Carol Miller of 
West Virginia.''
    Ms. Castor. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment of Mrs. Miller follows:]
    Amendment to the Rules for the Select Committee on the Climate 
                                 Crisis
                Offered by Carol Miller of West Virginia
    Committee Rule 5 is amended by adding the following to the end--
    ``(e) Contents.-- Any Committee reports shall include--
          (1) a quantification of the effect on sea level rise as a 
        result of the implementation of recommendations made by the 
        Committee; and
          (2) a quantification of the change in global temperatures 
        resulting from the implementation of recommendations made by 
        the Committee compared to the change in global temperatures 
        without the implementation of recommendations made by the 
        Committee.''

    Ms. Castor. And my colleague from West Virginia is 
recognized for 5 minutes in support of her amendment.
    Mrs. Miller. Thank you, Madam Chair.
    I rise today to speak in favor of my amendment. My 
amendment is very straightforward and simply provides 
accountability by establishing data instead of fear or 
conjecture.
    It requires that any recommendations made by this committee 
include a quantification of how the recommendation will affect 
sea-level rise. In addition, my amendment also requires the 
committee to quantify the change in global temperatures as a 
result of the recommendation.
    If this committee is serious about addressing the issue of 
climate change and the environment, this amendment should be 
easily accepted. I believe it is important that we and the 
American people know how actions taken by this committee will 
actually make a difference in our global climate.
    Thank you, Madam Chair, and I yield back.
    Ms. Castor. The gentlewoman yields back.
    I recognize myself for 5 minutes in opposition to the 
amendment.
    As with the other amendments, and noted during the debate 
on Mr. Graves' amendment and the subsequent amendments, under 
rule 5(c), every member will have an opportunity to file 
additional views to committee reports and to offer their 
analysis, and we will all be working together to move these 
forward.
    If Ms. Miller feels the analysis outlined in her amendment 
is not covered in the committee report and committee 
discussions, she will have the opportunity to provide 
supplementary analysis as additional views.
    So I urge a ``no'' vote on this amendment and would like to 
see if any other member would like to speak on the amendment. I 
could yield them time.
    So I will yield back and recognize the ranking member.
    Mr. Graves. Thank you, Madam Chair.
    Madam Chair, very quickly, I just want to make note, even 
referencing your opening comments, the charge of this committee 
is to carry out measures that help to prevent the adverse 
implications of polluting the environment, of climate change. 
If we don't take science, if we don't make science-based, 
informed decisions, I am concerned that we are just going to go 
out there and just throw everything at the wall without having 
some type of measure.
    And I understand we can file supplementary views. This 
needs to be foundational. Nothing should be in the report 
without some type of analysis or quantification. I mean, what 
happens if we go out there and we go destroy economies? What 
happens if we do things that actually have an adverse impact on 
the very objectives that we are working to achieve?
    I want to thank the gentlelady from West Virginia for 
offering this amendment. This is about quantifying the effects 
on sea rise of our recommendations, quantifying the effects on 
temperature changes of our recommendations. These seem 
foundational to the very charge of this committee.
    And I can see that many of you are feeling that bipartisan 
tug, to my left. And I just want to give you an opportunity to 
throw in a ``yes'' vote on an amendment that really, again, is 
foundational to this committee's charge.
    I urge adoption and yield back.
    Ms. Castor. The gentleman yields back.
    Mr. Graves. I can see it.
    Ms. Castor. Any other members who would like to be heard on 
the amendment?
    If not, hearing no further debate, the question is on 
adoption of the Miller amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of chair, the noes have it, and the 
amendment is not adopted.
    Mrs. Miller. I would like to request a roll call vote.
    Ms. Castor. A roll call vote has been requested. The clerk 
will call the roll.
    The Clerk. Mr. Lujan?
    Mr. Lujan. No.
    The Clerk. Mr. Lujan votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Ms. Brownley?
    Ms. Brownley. No.
    The Clerk. Ms. Brownley votes no.
    Mr. Huffman?
    [No response.]
    The Clerk. Mr. McEachin?
    Mr. McEachin. No.
    The Clerk. Mr. McEachin votes no.
    Mr. Levin?
    Mr. Levin. No.
    The Clerk. Mr. Levin votes no.
    Mr. Casten?
    [No response.]
    The Clerk. Mr. Neguse?
    Mr. Neguse. No.
    The Clerk. Mr. Neguse votes no.
    Mr. Graves?
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes aye.
    Mr. Griffith?
    Mr. Griffith. Aye.
    The Clerk. Mr. Griffith votes aye.
    Mr. Palmer?
    Mr. Palmer. Yes.
    The Clerk. Mr. Palmer votes aye.
    Mr. Carter?
    Mr. Carter. Aye.
    The Clerk. Mr. Carter votes aye.
    Mrs. Miller?
    Mrs. Miller. Aye.
    The Clerk. Mrs. Miller votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes aye.
    Madam Chair?
    Ms. Castor. No.
    The Clerk. Madam Chair votes no.
    Ms. Castor. The clerk will report the vote.
    The Clerk. Six yeas, seven nays.
    Ms. Castor. The amendment is not adopted.
    At this time, are there any other amendments to be 
proposed?
    If not, we will move to adoption of the rules.
    The question is now on adoption of the rules.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the chair, the ayes have it. The rules 
are adopted.
    And, without objection, the motion to reconsider is laid 
upon the table.
    I now ask unanimous consent that the staff be allowed to 
make any technical and conforming changes to the rules, subject 
to approval of the minority.
    Hearing no objections, it is so ordered.
    I want to just briefly make an announcement here at the 
close that our website is up and running, 
climatecrisis.house.gov. The Twitter account is also available. 
I urge you all to follow @climatecrisis on Twitter.
    And if there is no further business, I would like to thank 
everyone for attending today's meeting.
    I didn't do final passage on the--okay. Excuse me. Let's go 
back to--the question is now on adoption of the rules, all 
those--I thought we did--we did do that. Yeah, it was a voice 
vote.
    They have been working--our staff members have been working 
so hard to get to this point. I want to thank the minority 
staff and the majority staff for all of their hard work helping 
to launch this committee. It is not easy to bring a committee 
into existence that doesn't exist.
    So thank you to everyone's staff. We look forward to 
working together.
    So if there is no further business, I would like to thank 
everyone for attending today's meeting, and I look forward to a 
productive year ahead.
    Without objection, this meeting is adjourned.
    [Whereupon, at 10:01 a.m., the committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
